December 21, 2000

PATRICK R. DONAHOE
SENIOR VICE PRESIDENT, HUMAN RESOURCES

MARY ANNE GIBBONS
VICE PRESIDENT, GENERAL COUNSEL

SUBJECT:	 Transmittal of Audit Report - Equal Employment Opportunity Complaint
          Settlement Agreement (Report Number LB-AR-01-013)

This report presents the results of our review of allegations regarding the settlement of
an Equal Employment Opportunity complaint involving the former            , as the alleged
discriminating official (Project Number 00JA002LB000). This audit was initiated as a
result of an anonymous hotline complaint the Office of Inspector General (OIG) received
regarding the settlement agreement.

This audit revealed that the Postal Service had no controls in place to ensure that the
settlement agreement involving the                   , was reviewed and approved by a
higher level official prior to execution. In discussions with Postal Service officials, we
were informed that managers are given the authority to settle Equal Employment
Opportunity complaints without approval from a higher level official even in cases where
the manager is the alleged discriminating official. We recommended the senior vice
president, Human Resources and the vice president, General Counsel develop policies
and procedures requiring that a higher level official review and approve Equal
Employment Opportunity complaint settlements involving officers and executives.
Management agreed with our findings and recommendations. Management’s
comments and our evaluation of their comments are included in the report.
We appreciate the cooperation and courtesies provided by your staff during this review.
If you have any questions, please contact Joyce Hansen, director, Labor Management-
Rosslyn, or me at (703) 248-2300.



Ronald K. Stith
Assistant Inspector General
 for Oversight and Business Evaluation


Attachment

cc: Yvonne D. Maquire
    John E. Potter
    Karen Barowski
    John R. Gunnels
Equal Employment Opportunity Complaint                    LB-AR-01-013
 Settlement Agreement


                                 TABLE OF CONTENTS

Executive Summary
                                    i

Part I 


Introduction 
                                       1

    Background                                       1

    Objective, Scope, and Methodology                1


Part II 


Audit Results                                        3


    Internal Controls for Settlement Agreements      3

         Settlement Agreement Involving the          3


        Benchmarking Data                            3

    Recommendation                                   4
    Management’s Comments                            4

    Evaluation of Management’s Comments              4


Appendix A. Benchmarking Data                        5


   Federal Agencies                                  5

   Private Companies                                 8


Appendix B. Management’s Comments                    10 

Equal Employment Opportunity Complaint                                                               LB-AR-01-013
 Settlement Agreement


                                      EXECUTIVE SUMMARY
    Introduction 	                 We completed an audit of allegations regarding the
                                   settlement of an Equal Employment Opportunity complaint
                                   involving the                as the alleged discriminating
                                   official. Our objective was to determine if controls were in
                                   place and followed to ensure that the settlement agreement
                                   was reviewed and approved by a higher level official prior to
                                   execution. This audit was initiated as a result of an
                                   anonymous hotline complaint the Office of Inspector
                                   General (OIG) received regarding the settlement
                                   agreement.

    Results in Brief	              The audit revealed that the Postal Service had no controls
                                   in place to ensure the settlement agreement involving the
                                                    , was reviewed and approved by a higher level
                                   official prior to execution. In discussions with Postal Service
                                   officials, we were informed that managers have the authority
                                   to settle Equal Employment Opportunity complaints without
                                   approval from a higher authority, even in cases where the
                                   manager is the alleged discriminating official.

                                   We benchmarked1 with private sector companies and
                                   federal agencies, and found a variety of practices for
                                   handling Equal Employment Opportunity complaints
                                   involving high-ranking officials. These organizations had
                                   established policies and procedures that require approval by
                                   a higher level or a designated official when there is a
                                   potentially embarrassing situation, conflict of interest, or
                                   settlements over a certain monetary amount. Controls of
                                   this type help to mitigate the appearance of unethical
                                   behavior.




1
  The American Productivity and Quality Center defines benchmarking as the process of improving performance by
continuously identifying, understanding, and adapting outstanding practices and processes found inside and outside
the organization.




                                                         i
Equal Employment Opportunity Complaint                                          LB-AR-01-013
 Settlement Agreement




 Summary of                  We recommend the senior vice president, Human
 Recommendation              Resources and the vice president, General Counsel, revise
                             policies and procedures to require higher level officials to
                             review proposed Equal Employment Opportunity
                             settlements in instances involving allegations against
                             officers and executives.

 Summary of                  Management concurred with our recommendation and
 Management’s                stated that a policy statement consistent with the
 Comments                    recommendation would be issued. Management suggested
                             language be added clarifying that the approving official
                             should be a level higher than the official against whom the
                             allegation has been made. Management also suggested
                             that the report be revised to include a statement that the
                             settlement agreement received legal review prior to
                             execution. These changes were made to the report.

                             Management’s comments in their entirety are included in
                             the Appendix B.

 Overall Evaluation of       Management’s comments are responsive to our
 Management’s                recommendation and the planned action should correct the
 Comments                    issues identified in this report.




                                              ii
Equal Employment Opportunity Complaint                                                              LB-AR-01-013
 Settlement Agreement


                                            INTRODUCTION
    Background                    The OIG initiated this audit as a result of an anonymous
                                  hotline complaint regarding the settlement of an Equal
                                  Employment Opportunity complaint involving the
                                                               .

                                  The                   was named as the alleged discriminating
                                  official in an Equal Employment Opportunity sexual
                                  harassment complaint filed on May 29, 1998. The primary
                                  allegation in the complaint was that an individual allegedly
                                  having a personal relationship with the                 was
                                  selected for a management position in the Suncoast District
                                  over the complainant. The                    was the selecting
                                  official for the position. The complaint was settled through
                                  mediation on January 11, 1999.2 The alleged
                                                  as part of the settlement agreement.

    Objective, Scope, and         The overall objective of our audit was to determine if
    Methodology                   controls were in place to ensure that the settlement
                                  agreement involving the                              , was
                                  reviewed and approved by a higher level official prior to
                                  execution.

                                  To accomplish this objective we reviewed the Equal
                                  Employment Opportunity case file, the settlement
                                  agreement in question, and related policies and procedures.
                                  We met with Postal Service officials at headquarters, the
                                  Southeast Area office, and the Suncoast and Mississippi
                                  Districts. We also interviewed the

                                  For the purposes of establishing best practices, we made
                                  inquiries and obtained data from three private companies
                                  and four federal agencies we judgementally selected,
                                  regarding handling of Equal Employment Opportunity
                                  complaints when the alleged discriminating official has a
                                  high level position within the organization. In addition, we
                                  reviewed benchmarking data provided by the Postal Service
                                  General Counsel and Human Resources offices on
                                  settlement authority within seven federal agencies and one
                                  quasi-federal agency.


2
  The Equal Employment Opportunity complaint was settled through the Postal Service’s alternative dispute
resolution process, Resolve Employment Disputes Reach Equitable Solutions Swiftly (REDRESS).




                                                        1
Equal Employment Opportunity Complaint                                        LB-AR-01-013
 Settlement Agreement


                             This audit was conducted from May 2000, through
                             December 2000, in accordance with generally accepted
                             government auditing standards, and included such tests of
                             internal controls, as were considered necessary under the
                             circumstances. We discussed our conclusions and
                             observations with appropriate management officials and
                             included their comments, where appropriate.




                                             2
Equal Employment Opportunity Complaint                                              LB-AR-01-013
 Settlement Agreement


                                     AUDIT RESULTS
 Internal Controls for       Our audit revealed the Postal Service had no controls in
 Settlement                  place to ensure that the settlement agreement
 Agreements                                   , was reviewed and approved by a higher level
                             official prior to execution. In this case, the settlement
                             agreement did receive legal review and approval. In
                             discussions with Postal Service officials, we were informed
                             that managers have the authority to settle Equal
                             Employment Opportunity complaints without approval from
                             a higher authority even in cases where the manager is the
                             alleged discriminating official. Settlement of complaints in
                             this manner could lead to an appearance of unethical
                             behavior.

 Settlement Agreement        We found that the                   did not obtain approval
 Involving the Former        from a higher level official for the               settlement.
 Vice President of           Under Postal Service practices in place at the time, the
 Operations                                actions were considered acceptable.

                             The                             . The chief operating officer
                             stated that he was not aware of the settlement agreement
                             until he read about the settlement in a national newspaper.
                             He stated that he supported implementing checks and
                             balances in these types of situations to protect the integrity
                             of the Postal Service.

 Benchmarking Data           We obtained data from four federal agencies and three
                             private companies to determine best practices in situations
                             where the alleged discriminating official is a high-ranking
                             employee (See Appendix A). All of these organizations
                             have policies and procedures in place when an alleged
                             discriminating official is in a high level position. Specifically,
                             all of the federal agencies and private companies required
                             legal and top management reviews and approval for
                             monetary settlements. Two of the four federal agencies we
                             benchmarked with allowed senior managers who were the
                             alleged discriminating officials to handle nonmonetary
                             settlements. A third agency removed the senior manager
                             who was named in the complaint from the settlement
                             process, entirely. The fourth agency allowed the alleged




                                               3
Equal Employment Opportunity Complaint                                             LB-AR-01-013
 Settlement Agreement



                             discriminating official to settle, but required legal review of
                             agreements. None of the private companies allowed the
                             alleged discriminating official to be involved in settlements.

                             In addition to the agencies and companies the OIG
                             reviewed, Postal Service General Counsel and Human
                             Resources offices conducted a telephone survey of eight
                             federal agencies. Of the eight agencies, five required a
                             higher level review and approval of settlements. The
                             remaining three agencies did not require a higher level
                             review or approval. Also, some agencies set dollar amounts
                             that limited the monetary approval authority of alleged
                             discriminating officials.

 Recommendation 	            We recommend the senior vice president, Human
                             Resources and the vice president, General Counsel, revise
                             policies and procedures to require higher level officials
                             review of proposed Equal Employment Opportunity
                             settlements in instances involving allegations against
                             officers and executives.

 Management’s                Management concurred with our recommendation and
 Comments                    stated they are preparing a policy statement to be issued.
                             Management suggested a minor revision to the
                             recommendation for clarification purposes. Specifically,
                             they suggested the approving official should be a level
                             higher than the official against whom the allegation has
                             been made. Also, management suggested a statement be
                             added to the report that the settlement agreement did
                             receive legal review and approval.

 Evaluation of               Management’s comments are responsive to our
 Management’s                recommendations and the planned actions should correct
 Comments                    the issues identified in this report. Changes requested by
                             management were made to the report. Management’s
                             comments in their entirety, are included in Appendix B.




                                               4
Equal Employment Opportunity Complaint                                                                                 LB-AR-01-013
 Settlement Agreement


                              APPENDIX A. BENCHMARKING DATA
Federal Agencies

       Question                   Agency #1                   Agency #2                  Agency #3                   Agency #4

 1.   How do you            An EEO counselor            An EEO counselor           If the ADO were a           Complaints are usually
      handle Equal          handles the fact-           handles the fact-          senior level employee,      filed against the
      Employment            finding. If the ADO is a    finding. The agency        they would be kept          agency and not against
      Opportunity           Deputy Director or          uses internal and          totally out of the          a specific individual.
      (EEO) complaints      above, that individual      external investigators     process. The
      where the alleged     may be present at the       in the fact-finding        allegations would be
      discriminating        mediation to give           activities for each        investigated to see if
      official (ADO) is a   his/her version or          case. The agency           he/she violated the
      person in a higher    his/her supervisor may      uses more care in          agency's Standards of
      level position?       assign another              selecting investigators    Excellence.
                            employee to represent       when the ADO is a
                            him/her.                    senior ranking
                                                        employee.

 2.   Do you have an        Yes. EEO complaints         Yes. The informal          No. The agency              Yes. The agency
      alternative           are handled through an      process begins with        follows the mediation       utilizes the
      dispute resolution    informal and a formal       counseling with an         guidelines established      Ombudsman to
      (ADR) process for     process. During the         EEO counselor. The         by the EEOC. When a         facilitate mediation for
      handling EEO          informal process, an        employee is given the      complaint is filed, it      EEO complaints. An
      complaints? If so     EEO counselor               option to attempt          goes through the            individual may choose
      what is it and        identifies the issue to     resolution through         following steps: (1) the    to go through the
      how, does it          determine if it can be      counseling or              allegation is               informal counseling
      work?                 assumed in a class          mediation. The             investigated internally     process of utilize the
                            action suit. The            employee can opt to        (if the person has an       ADR.
                            employee is given the       use internal or external   attorney, the law
                            option to proceed as        mediators.                 department handles
                            part of a class action or                              the investigation); (2) a
                            to seek mediation. If       Mediation is available     position paper is
                            mediation is selected,      to the complainant at      written summarizing
                            the ADR unit (in the        all times, within Equal    what was found during
                            legal department) is        Employment                 the fact-finding
                            contacted to contract       Opportunity                effort(s); (3) the
                            with a mediator for         Commission’s               position paper is sent
                            settlement.                 (EEOC’s) regulations       to the EEOC for their
                                                        for processing EEO         ruling; (4) if harm is
                            If the issue is not         complaints.                found, they attempt to
                            resolved, the                                          reach a settlement.
                            complainant will
                            receive an official
                            document that gives
                            him/her the right to file
                            a formal complaint.




                                                                   5
Equal Employment Opportunity Complaint                                                                             LB-AR-01-013
 Settlement Agreement



       Question                   Agency #1                Agency #2                   Agency #3                  Agency #4

 3.   If the ADO is in a   If the settlement is       No. The ADO may be        No. During settlement      Yes, however, the
      higher level         monetary, the ADO is       at the mediation          procedures, the two        Office of Chief Counsel
      position and the     not allowed to settle.     session to give his/her   parties are kept           must review the terms
      organization has     All monetary               version of the events.    separate. Generally, a     of the agreement.
      an ADR process,      settlements are pre-       However, he/she will      law department
      is that person       approved by a Deputy       not be part of the        representative, the
      allowed to settle    to the Chairman. This      settlement process.       manager of the person
      the complaint        is handled by legal        If the settlement is      charged, the attorneys
      without              before the mediation.      monetary, the legal       of the person charged,
      authorization from                              department and EEO        and the complainant
      superiors?           If the ADO happens to      office select an amount   are the parties involved
                           be a Deputy Director,      and the recommended       in the settlement.
                           he/she may be at the       amount is
                           mediation and offer a      communicated to the
                           settlement for             ADO. The ADO does
                           nonmonetary issues,        not have the right to
                           such as staffing issues.   approve the amount,
                                                      which is done by
                                                      senior management.

                                                      If the settlement is
                                                      nonmonetary, the EEO
                                                      counselor makes a
                                                      recommendation to the
                                                      ADO who may agree
                                                      or disagree. The EEO
                                                      office then assesses
                                                      the risk to the agency
                                                      of not settling and
                                                      discusses the issue
                                                      with the ADO again. If
                                                      settlement is not
                                                      agreed upon, a person
                                                      senior to the ADO is
                                                      notified.
 4.   Are you using the    Yes.                       Yes.                      Yes.                       Yes.
      current EEOC
      guidelines?
 5.   How strongly do      Settlements are            EEO counselors                                       The agency
      you encourage        encouraged as early        attempt to resolve EEO                               encourages settlement
      settlement of        as possible, preferably    cases as soon as the                                 of EEO complaints at
      EEO cases (at        during the informal        complaint is filed.                                  both the informal and
      what level)?         stage.                                                                          formal phases of the
                                                                                                           process.
 6.   Do monetary          Yes. If there is a         Yes. Monetary             Yes. Settlements are       Yes. Chief Counsel
      settlements          monetary settlement, a     settlements are           handled by the law         and the Assistant
      require upper        justifying memo is sent    suggested by the legal    department and the         Director for
      level approval?      from one of the            department and the        manager of the person      Administration are
                           agency’s corporate         EEO office, and           charged.                   involved in the
                           attorneys to the           approved by senior                                   approval and issuance
                           General Counsel, to a      management.                                          of settlements.
                           Deputy to the
                           Chairman. All
                           monetary settlements
                           are handled through
                           the legal department
                           prior to mediation.

                           The agency does not
                           settle for nuisance
                           value; all settlements
                           must be meritorious
                           and have legal
                           reasoning.




                                                                6
Equal Employment Opportunity Complaint                                                                              LB-AR-01-013
 Settlement Agreement



       Question                Agency #1                  Agency #2                   Agency #3                   Agency #4

 7.   Where does the     Not certain.               A general operating         From the manager’s          The operating budget.
      money come                                    fund.                       budget.
      from?

 8.   How does the       The ADO is not able to     Complainants know           The agency minimizes        If discrimination is
      organization       offer any monetary         that once they file a       the risk of a conflict of   found in such cases as
      avoid the          settlements during         complaint against a         interest and the            sexual harassment or
      appearance of      mediation. All             senior official, that       appearance that due         retaliation, appropriate
      wrongdoing in      settlements are            person is in the            process is being            corrective action is
      cases where the    handled strictly through   process. Steps may          compromised by              taken.
      ADO is a person    the legal department.      be taken to minimize        keeping the ADO
      of position?                                  external exposure but       completely out of the       Also, EEO complaints
                                                    no complaints are           process. If the ADO is      are typically filed
                                                    pulled. Also, the           the manager of the          against the agency and
                                                    ADO's inability to settle   complainant, the two        not a specific
                                                    his/her own case            are separated to avoid      individual.
                                                    minimizes the               retaliation.
                                                    appearance of a
                                                    conflict of interest.
 9.   Demographic
      Questions

 •    How large is the   Quasi-Government           Information not             National corporation        Information not
      organization?      with regional offices.     provided.                                               provided.
                                                                                500 stations in 45
                                                                                states.

 •    Number of          7,400 employees (but       1,700 employees.            6,000 employees.            5,483 employees.
      employees?         downsizing).

 •    How many EEO       Not certain because        One this year.              Interviewee not aware       Complaints are filed
      cases involve      many managers are                                      of historical data. As      against the agency and
      upper level        named in complaints                                    he has only been there      not a specific
      management as      simply because of their                                since April 2000.           individual.
      the ADO (vice      positions.
      president and
      above)?

 •    Corporate Office   Washington, D.C.           Washington, D.C.            Washington, D.C.            Information not
      location?                                                                                             provided.

 •    Number of years    67 years.                  Information not             29 years.                   Information not
      in business?                                  provided.                                               provided.

 •    Reporting/         A chairman with three      A chairman with seven       President with senior       Information not
      organization       deputies who manage        Board of Governors.         vice presidents who         provided.
      structure?         division directors who,    Board officers (SES         manage vice
                         in turn, manage deputy     equivalent) include         presidents for the
                         directors (equivalent of   division directors,         corridors, who, in turn,
                         SES).                      deputy directors,           manage area
                                                    associate directors,        managers. Area
                                                    and assistant directors.    managers supervise
                                                                                district managers who
                                                                                supervise station
                                                                                managers.




                                                               7
Equal Employment Opportunity Complaint                                                                                     LB-AR-01-013
 Settlement Agreement


Private Companies
           Question                       Company #1                            Company #2                         Company #3

 1.   How do you handle EEO       To his knowledge the                  All complaints are handled in     EEO complaints are handled
      complaints where the        company has not had any               the same manner. An               at the home office through
      alleged discriminating      EEO complaints where the              investigation is conducted by     the Labor and Employment
      official (ADO) is a         alleged discriminating official       the Manager of Diversity and      Division. This division
      person in a higher level    was an upper level manager.           Workforce Planning.               conducts the fact-finding; a
      position?                   If this were to happen, the                                             senior level employee in
                                  case would be handled the                                               Human Resources may be
                                  same way as any other case;                                             brought in to assist with the
                                  however, a senior                                                       process.
                                  investigator probably would
                                  investigate the case.

 2.   Do you have an ADR          Yes. It is called the Dispute         No. The company does not          Yes. The company has a
      process for handling        Resolution Process (DRP).             have an internal ADR              program known as the “Open
      EEO complaints? If so       The DRP has three levels –            program. If a complaint is        Door Policy” in which
      what is it and how, does    Level 1 is a discussion               filed, the Manager of Diversity   employees are encouraged to
      it work?                    between the manager,                  and Workforce Planning            talk with their supervisors
                                  employee, and a DRP                   investigates. If the subject of   when they have a complaint.
                                  representative; Level 2 is            the complaint is found guilty,
                                  mediation; and Level 3 is             he/she is terminated. If the      If an official complaint is filed,
                                  arbitration.                          complaint cannot be               the company's Labor and
                                                                        substantiated but there is a      Employment Division
                                                                        finding of some wrongdoing,       conducts the fact-finding
                                                                        the manager may be                process. During the fact-
                                                                        demoted from a managerial         finding, both parties may be
                                                                        role to an individual             required to give their versions
                                                                        contributor role. If the          of the incidents. The division
                                                                        complainant is not satisfied,     then writes a report on its
                                                                        they can file a complaint         findings for management.
                                                                        through the EEOC.                 The legal team is typically not
                                                                                                          involved but, if necessary,
                                                                                                          they will work with the EEOC
                                                                                                          to resolve issues.

 3.   If the ADO is in a higher   No. It has never happened at          If the complainant accepts        If the ADO were a senior
      level position and the      this company but he could             the EEOC’s invitation to          level employee, he/she would
      organization has an         not think of a situation where        mediate, the ADO will not be      never be allowed to handle
      ADR process, is that        if the ADO were an upper              a part of the mediation team.     settlements; it would be
      person allowed to settle    level manager that he/she             Settlements are handled by        unusual for him/her to be
      the complaint without       would make a monetary                 Human Resources and               present at the settlement
      authorization from          settlement without approval           Corporate Counsel.                meetings.
      superiors?                  at the next highest level.

 4.   Are you using the           The company has its own               Yes.                              Yes.
      current EEOC                program, and it is probably
      guidelines?                 based on the federal
                                  program.
 5.   How strongly do you         The company's goal is to              Settlements are usually not a     The company encourages
      encourage settlement of     settle EEO cases before they          part of the process. They         employees to talk with their
      EEO cases (At what          go to litigation.                     conduct investigations to         supervisors if there is a
      level)?                                                           attempt to substantiate the       problem by using the Open
                                                                        complainant’s charges.            Door Policy process.

 6.   Do monetary                 Yes. Monetary settlements             If there is a settlement          Yes. The Corporate Counsel
      settlements require         are handled through                   through the EEOC process, it      is the company
      upper level approval?       Corporate Counsel                     will be handled by Human          representative under the
                                  department with a vice                Resources and Corporate           direction of top management.
                                  president’s approval.                 Counsel.

 7.   Where does the money        From the manager’s budget.            From the department’s             From the manager’s budget
      come from?                                                        budget.                           or another budget if directed
                                                                                                          by top management.




                                                                    8
Equal Employment Opportunity Complaint                                                                                   LB-AR-01-013
 Settlement Agreement

          Question                      Company #1                             Company #2                         Company #3

 8.   How does the              Information not provided.             The company minimizes the          The company minimizes the
      organization avoid the                                          risk of conflict of interest and   risk of conflict of interest and
      appearance of                                                   the appearance that due            the appearance that due
      wrongdoing in cases                                             process is being                   process is being
      where the ADO is a                                              compromised by not allowing        compromised by not allowing
      person of position?                                             the ADO to handle or be            the ADO to handle
                                                                      present at settlements.            settlements. They may be
                                                                                                         present at the mediation;
                                                                                                         however, this is rare. The
                                                                                                         company’s legal team
                                                                                                         handles settlements in the
                                                                                                         mediation process.

 9.   Demographic Questions

 •    How large is the          Multinational corporation - in        National corporation.              Multinational corporation in
      organization?             10 countries.                                                            nine countries.

 •    Number of employees?      24,000 employees.                     8,000 employees.                   1 million employees
                                                                                                         domestically.
 •    How many EEO cases        Doesn’t know of any. Most             Approximately three cases          Information not provided.
      involve upper level       occur at the supervisory level.       over the last five years.
      management as the
      ADO (VP and above)?

 •    Corporate Office          Missouri.                             Georgia.                           Arkansas.
      location?

 •    Number of years in        120 years.                            114 years.                         38 years.
      business?

 •    Reporting/ organization   President with approximately          Chief Executive Officer, Chief     Chief Executive Officer with
      structure?                12 vice presidents who                Operating Officer who              executive vice presidents
                                manage lower level vice               manages approximately 15           who manage divisional vice
                                presidents who, in turn,              senior vice presidents who         presidents (there are 5-6
                                manage directors/senior               supervise directors, assistant     divisions) who, in turn,
                                managers.                             vice presidents and/or vice        manage regional vice
                                                                      presidents who supervise           presidents. The vice
                                                                      directors and managers.            presidents manage district
                                                                                                         managers who manage store
                                                                                                         managers.




                                                                  9
Equal Employment Opportunity Complaint               LB-AR-01-013
 Settlement Agreement


                 APPENDIX B. MANAGEMENT’S COMMENTS




                                         10
Equal Employment Opportunity Complaint        LB-AR-01-013
 Settlement Agreement




                                         11
